No. 20-________

In the Supreme Court of the United States
STATE OF LOUISIANA,
Petitioner
v.
AARON HAUSER,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Louisiana

PROOF OF SERVICE

Undersigned counsel certifies that, under Supreme Court Rule 29.3, the
Petition for Writ of Certiorari was served on each party, or that party’s counsel, as
listed below, on March 5, 2021. Service was made by United States mail—with firstclass postage prepaid.
Kristin Wenstrom
Louisiana Center for Children’s Rights
1100-B Milton Street
New Orleans, LA 70122
I declare under penalty of perjury that the following is true and correct.
Executed on March 5, 2021.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

